~~http://www-supremecourtus.gov. Have the Supreme -Court-docket number available: —-——~--—-~--~

WAIVER

Supreme Court of the United States

No. 20-5414
Aimee Lewis v. Seventh Circuit Court, South Dakota
Unified Judicial System, et al.
(Petitioner) (Respondents)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
Q Please enter my appearance as Counsel of Record for all respondents.

3 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Seventh Circuit Court, South Dakota Unified Judicial System

 

x Iam a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,

the response ® o by a Bar membep=
Signature uA Cher

 

 

 

Date: __ a 4: Boro
(Type or print) Name__Robert B,. Anderson
BEMr. OMs. O Mrs. O Miss
Firm_MM a

 

Address_503 S Pierre St, PO Box 160

City & State_Pierre, D. Zip 67501

Phone __(605) 224-8203
SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Aimee Lewis Bangs, McC€ullen, Butler, Foye & Simmons
1360 Firefly Circle Attn: Dan Duffy
Colorado Springs CO PO Box 2670
80916 Rapid City, SD 57701

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at

 
